Oversight Review                April 8, 2009

Defense Contract Management Agency Actions
 on Audits of Cost Accounting Standards and
      Internal Control Systems at DoD
           Contractors Involved in
        Iraq Reconstruction Activities
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant Inspector
  General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703)
  604-8982.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-8982. Ideas and requests can also be mailed to:


                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 833)
                                 Arlington, VA 22202-4704




Acronyms

CAFU          Contract Audit Follow-up
CAS           Cost Accounting Standard
DCAA          Defense Contract Audit Agency
DCMA          Defense Contract Management Agency
DFARS         Defense Federal Acquisition Regulation Supplement
FAR           Federal Acquisition Regulation
IG            Inspector General
PGI           Procedures, Guidance, and Information
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                                 April 8,2009

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT: Report of Defense Contract Management Agency Actions on Audits of Cost
         Accounting Standards and Internal Conn'ol Systems at DoD Conn'actors
         Involved in Iraq Reconstruction Activities (Report No. D-2009-6-004)

       We are providing this final report for your review and comment. We performed this
review in accordance with DoD Directive 7640.2 "Policy for Follow-up on Conn'act Audit
Reports", February 12, 1988 (the Directive was reissued as DoD Instruction 7640.02 under
the same title on August 22, 2008). The directive required that we monitor and evaluate
systems in the Department of Defense for follow-up on conn'act audits.

       We request that management provide comments that conform to the requirements of
DoD Directive 7650.3. Please reconsider your partial concurrence to Reconunendation E.l.
For us to consider management COI1Ullents to the final report, we should receive them by
May 8, 2009.

        If possible, please send management comments in elecn'onic format (Adobe Acrobat
file only) to the e-mail address cited in the last paragraph of this memorandum. Copies of
the management conunents must contain the actual signature of the authorizing official. We
cannot accept the / Signed / symbol in place of the actual signature. Matters considered to be
exempt from public release should be clearly marked for DoD Inspector General
consideration.

        Management comments should indicate concurrence or nonconcurrence with
Recommendation E.!. If management agrees to the reconmlendation, the management
comments should describe actions taken or planned and provide anticipated dates for
completing the actions. State specific reasons for any nonconcurrence, and propose
alternative actions, if appropriate.

      We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Meredith Long-Morin at (703) 604-8739 (DSN 664-8739), meredith.morin@dodig.mil.



                                           c~a1'/)~o
                                           Assistant Inspector General
                                            for Audit Policy and Oversight
Table of Contents
Results in Brief                                                                 i

Introduction

   Objective                                                                     1
   Background                                                                    1

Findings

   A. Insufficient Rationale for Actions on Reported Cost Accounting Standard
               Noncompliances                                                    3
        Failure to Collect Full Amount of Self-Insurance Credit Due to the
               Government                                                        3
            Self-Insurance Credit                                                3
            Applicable Criteria                                                  3
            DCAA Audit Report                                                    4
            DCMA Houston Contracting Officer Determination                       4
        Desirable Cost Accounting Change Determination Not Justified             5
            Contractor’s Cost Accounting Change                                  5
            FAR Criteria                                                         5
            DCAA Audit Report                                                    6
            DCMA Houston Contracting Officer Determination                       6
            Recommendation A                                                     6

   B. Accounting System Determination Not Supported                              8
       DoD Regulation on Contractor Accounting Systems                           8
       DCAA Audit Report                                                         8
       DCMA Houston Contracting Officer Determination                            9
       Recommendation B                                                         10

   C. Need for Better Coordination on Estimating System Reviews at
             DCMA Philadelphia                                                  12
       DoD Procedures for Conducting and Dispositioning Contractor              12
             Estimating System Reviews                                          12
       DCAA Estimating System Report                                            12
       DCMA Philadelphia Contracting Officer Determination                      12
       Recommendation C                                                         13
Table of Contents (Cont.)
  D. Failure to Process CAS Noncompliances in Accordance
           with FAR 30.605                                             14
      Requirements for Processing Noncompliances                       14
      DCMA Noncompliance Processing                                    14
      Recommendation D                                                 15

  E. Inaccurate Contract Audit Follow-up Data                          16
       Data Accuracy Requirements                                      16
       Data Errors                                                     16
       Recommendation E                                                16

  F. Untimely Resolution and Disposition                               19
      Timeliness Requirement                                           19
      Untimely Resolution                                              19
      Untimely Disposition                                             19
      Lack of Management Controls                                      19
      Recommendation F                                                 20

  G. Contract Audit Follow-Up Not Addressed in Performance Appraisal   22
      DoD Directive Requirement                                        22
      DCMA Houston Performance Appraisals                              22
      Recommendation G                                                 22

Appendixes

  A.   Scope and Methodology                                           23
  B.   Days Taken to Process CAS Noncompliances                        25
  C.   Reportable Audits Not Being Reported                            27
  D.   Reported Resolution Date Inaccuracies                           28
  E.   Reported Disposition Date Inaccuracies                          29
  F.   Reported Status Inaccuracies                                    30
  G.   Untimely Resolution and Disposition                             31

Management Comments
  Defense Contract Management Agency Comments                          33
                    Defense Contract Management Agency
                             Actions on Audits of
                        Iraq Reconstruction Activities

                                                     not implemented adequate controls for
Results In Brief                                     ensuring an effective contract audit follow-
                                                     up function. Finally, DCMA Houston is not
What We Did                                          evaluating one of its contracting officers on
                                                     the contract audit follow-up process as DoD
We evaluated the actions that Defense                Directive 7640.2 required and DoD
Contract Management Agency contracting               Instruction 7640.02 requires.
officers took on audits of cost accounting
standards and internal control systems at
major defense contractors involved in Iraq           What We Recommended
reconstruction activities.     Our review
                                                     We recommended that DCMA develop a
covered audits of cost accounting standards
                                                     program whereby contracting officers seek
and internal control systems included in the
                                                     expert advice on complex noncompliance
semiannual reporting periods ending
                                                     issues, and implement procedures for
September 30, 2006, through September 30,
                                                     ensuring that contracting officers adequately
2007.
                                                     justify their actions. In addition, DCMA
                                                     Philadelphia must coordinate with DCAA
What We Found                                        when evaluating contractor responses, and
                                                     promptly process potential noncompliances
DCMA Houston contracting officers did not            in accordance with FAR 30.605. DCMA
adequately justify their actions in response         Philadelphia and Houston also need to
to two DCAA audit reports of potential cost          immediately reduce the backlog of overage
accounting standard noncompliances, and              audits, perform periodic reviews of the
the    actions     cost     the    Government        function, improve data accuracy, and hold
$1.6 million. A DCMA Pheonix contracting             contracting officers accountable.
officer also did not adequately justify his
decision to maintain his “adequate” opinion
of a major DoD contractor’s accounting               Management Comments
system in light of significant accounting
                                                     In responding to the September 30, 2008
system internal control weaknesses reported
                                                     draft of this report, DCMA concurred to 13
by DCAA.           In addition, a DCMA
                                                     recommendations and partially concurred
Philadelphia contracting officer failed to
                                                     to 1 recommendation. We request that
adequately coordinate with DCAA when she
                                                     DCMA reconsider its comments concerning
evaluated the contractor’s response to
                                                     our      recommendation    that     DCMA
DCAA-reported           estimating     system
                                                     contracting officers add DCAA Field
deficiencies.     DCMA Philadelphia and
                                                     Detachment audits into the contract audit
Houston did not timely process DCAA-
                                                     follow-up system. DCMA should provide
reported noncompliances in accordance with
                                                     its written comments to the final report by
FAR 30.605, and did not accurately report
                                                     May 8, 2009.
contract audit follow-up data.         DCMA
Philadelphia and Houston contracting                 United Stated Department of Department of Defense Office of Inspector General
                                                                        (Project No. D2008-DIP0AI-0086.000)
officers did not timely resolve or disposition                                 Report No. D-2009-6-004
                                                                                     April 8, 2009
several of the audits, and management has
                                                 i
                                         Introduction
Objective
Our objective was to review the actions that contracting officers took to resolve and disposition
audit reports containing internal control system recommendations and cost accounting standard
noncompliances at defense contractors involved in Iraq reconstruction activities. Our review
covered reports included in the semiannual reporting periods ending September 30, 2006 through
September 30, 2007 for the DCMA Houston, Philadelphia, and Virginia offices. See
Appendix A for details regarding our scope and methodology and prior coverage. This is the
first in a series of reports we plan to issue on the actions that contracting officers took in
response to audit reports of DoD contractors involved in Iraq reconstruction activities. Our next
report will cover the actions that contracting officers took on audit reports of incurred costs at
DoD contractors involved in Iraq reconstruction activities.

Background
Defense Contract Audit Agency. DCAA performs contract audits and provides accounting
and financial advisory services to all DoD Components. DCAA issues audit reports resulting
from several types of audits, such as audits on contractor compliance with cost accounting
standards and the adequacy of internal control systems.

DCAA conducts audits of cost accounting standards to determine if a contractor’s policies,
procedures, and practices comply with the requirements of the cost accounting standards (CAS)
contained in 48 Code of Federal Regulations Chapter 99, Cost Accounting Standards Board,
Office of Federal Procurement Policy, Office of Management and Budget. The CAS are
incorporated in FAR as an appendix, Cost Accounting Preambles and Regulations. They
establish rules for consistently allocating costs on Government contracts.

DCAA conducts audits of internal control systems at major DoD contractors to evaluate the
adequacy of the internal controls over major financial systems, such as the accounting, billing,
estimating, and purchasing systems.

Defense Contract Management Agency. DCMA is a DoD Component that works directly
with DoD contractors to help ensure that DoD, Federal, and allied government supplies and
services are delivered on time at projected cost and meet performance requirements. DCMA,
acting through its 47 field offices, is responsible for resolving and dispositioning most DCAA
audit reports for the Army, Navy, Air Force, and Defense Logistics Agency. This report focuses
on the actions that three DCMA offices – DCMA Houston 1 , Philadelphia, and Virginia – took in
response to DCAA audits of cost accounting standard noncompliances and internal control
system recommendations at major DoD contractors involved in Iraq reconstruction activities.


1
    DCMA Houston is a suboffice of the DCMA Pheonix field office


                                                       1
These three offices administer a significant portion of DoD contracts involving Iraq
reconstruction activities.

Effective June 2008, the responsibility for follow-up of DCMA Philadelphia audits covered in
this report transferred to DCMA Maryland. We addressed the related recommendations to both
the DCMA Philadelphia and Maryland offices since DCMA Maryland will be taking future
actions on the audits and DCMA Philadelphia will need to make improvements to its contract
audit follow-up system.

OMB Circular Number A-50, “Audit Followup”, September 29, 1982 provides the policies and
procedures for use by executive agencies (including DCMA) when considering reports issued by
the Inspectors General, other executive branch audit organizations, the Government
Accountability Office (GAO), and non-Federal auditors where followup is necessary.

DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports”, February 12, 1988,
prescribed the responsibilities, reporting requirements, and follow-up procedures on contract
audits conducted by Defense Contract Audit Agency. Paragraph 6.5 of the Directive required the
contracting officer to prepare a post-negotiation memorandum covering the disposition of all
significant audit report findings, including the underlying rationale for such dispositions. The
DoD Inspector General (IG) evaluates the effectiveness of contract audit follow-up (CAFU)
systems implemented at each DoD Component for compliance with this directive.

DoD Directive 7640.2 also required DoD Components to submit semiannual status reports on
reportable contract audits to the DoD IG. The DoD IG includes a summary of the status reports
for all DoD Components in its Semiannual Report to Congress. DoD Directive 7640.2 applied
to all CAFU actions covered in this review. The DoD Acting Inspector General reissued the
Directive as DoD Instruction 7640.02 on August 22, 2008.




                                                2
                                    Findings
  A. Insufficient Rationale for Actions on Reported
     Cost Accounting Standard Noncompliances
    DCMA-Houston contracting officers failed to document sufficient rationale for their
    actions on two DCAA Cost Accounting Standard (CAS) noncompliance reports. In one
    of the two actions, the contracting officer arbitrarily negotiated a position halfway
    between the DCAA and contractor positions in order to settle a self-insurance credit due
    to the Government. In the other action, the contracting officer determined that a cost
    accounting change was desirable to the Government and paid the contractor for the costs
    associated with the change. In both cases, the contracting officers did not adequately
    explain the basis for their decisions as DoD Directive 7640.2, paragraph 6.1 required.
    Because of their actions, the Government lost a combined $1.6 million in costs that
    DCMA contracting officers should not have paid the contractor. We are reviewing a
    third instance of an inappropriate DCMA-Houston contracting officer determination
    involving several million dollars in claimed subcontract costs. We will issue our detailed
    findings on this determination in our subsequent report of contracting officer actions on
    incurred costs audit reports involving Iraq reconstruction activities. DCMA needs to
    develop a program whereby contracting officers can obtain expert advice on complex
    noncompliance issues such as these to ensure that the actions comply with applicable
    regulations and the Government’s interests are protected.

Failure to Collect Full Amount of Self-Insurance Credit Due
to the Government
    Self-Insurance Credit. A DoD contractor maintains a self-insured health plan whereby
    employees pay a fixed premium for health coverage and the contractor assumes the
    responsibility of paying all claims filed under the plan. During the contractor fiscal year,
    the contractor charges the Government for the estimated costs of the plan and sets aside
    the estimate in a medical reserve account to pay the claims. Because the plan’s actual
    costs for 1994 through 1998 were significantly lower than the funds set aside in the
    medical reserve account and charged to the Government, the contractor withdrew
    $3.2 million from the medical reserve account and reclassified it as income. However,
    the contractor did not provide a credit to the Government for the $3.2 million withdrawal.

    Applicable Criteria. FAR 31.201-5 states, “The applicable portion of any income,
    rebate, allowance, or other credit relating to any allowable cost and received by or
    accruing to the contractor shall be credited to the Government either as a cost reduction
    or by cash refund.”

    CAS 416 provides criteria for the measurement of insurance costs, the assignment of such
    costs to cost accounting periods, and their allocation to contracts.


                                             3
          DCAA Audit Report. In Audit Report No. 3311-2004K19200001, August 6, 2004,
          DCAA reported that the contractor’s failure to credit the Government for the $3.2 million
          self-insurance reserve reclassification as income was in noncompliance with
          FAR 31.201-5 and CAS 416. In response, the contractor offered to credit the
          Government for $2.2 million. The $1 million difference represents the amount of credit
          that the contractor believed should be allocable to the plan’s employee contributions 2 . In
          Audit Report No. 3311-2005K1950000, February 28, 2007, DCAA stated that the
          contractor should not reduce the credit to the Government for the employee contributions
          because the contractor did not record the contributions as an expense. Furthermore,
          DCAA stated that the contractor had not shared any of the $3.2 million credit with its
          employees.

          DCMA Houston Contracting Officer Determination. The contracting officer
          negotiated a credit of $2.7 million, halfway between the $3.2 million in questioned costs
          and the $2.2 million contractor offer. The contracting officer’s negotiation memorandum
          does not include any explanation for the $2.7 million negotiation settlement, or any
          rationale for her decision to agree with the contractor’s assertion that a portion of the
          credit was allocable to the employee contributions.

          The contracting officer’s negotiation settlement was improper for several reasons. First,
          the contracting officer did not comply with DoD Directive 7640.2, Paragraph 6.5.1., by
          failing to include sufficient rationale in the negotiation memorandum to support a
          settlement that was different from the DCAA position. Second, the contracting officer
          failed to provide a legal basis for the settlement as required by OMB Circular
          Number A-50, paragraph 8a.(6). Third, the settlement was arbitrary and capricious and,
          as such, did not resolve the underlying legal question concerning whether the contractor
          was entitled to reduce the credit for the employee contributions. Fourth, the contractor
          arguments were not persuasive based on our review of information available in the
          contract file. We did not find any compelling reason to reduce the credit to the
          Government, especially since the employee contributions were fixed and the employees
          were not entitled to share in any differences between the estimated and actual costs.
          Finally, the contracting officer’s supervisor did not approve the negotiation position until
          2 years and five months after the contracting officer had issued her final determination to
          the contractor. The supervisor should have reviewed and approved the determination
          before the contracting officer issued it to ensure that the determination complied with
          applicable regulations and the negotiation memorandum included adequate rationale.

          The contracting officer’s actions in this case cost the Government $500,000, which is the
          difference between the DCAA calculated credit of $3.2 million and the negotiated
          settlement of $2.7 million. In addition, the contracting officer’s arbitrary and capricious
          determination has exposed the Government to the risk of additional losses when the
          contractor makes future withdrawals from its medical reserve account.



2
    The employee contributions made up about 33 percent of the claims paid under the plan.


                                                          4
         We noted another case where a DCMA Houston contracting officer made an arbitrary
         and capricious interim determination and exposed the Government to unnecessary losses.
         In this case, DCAA had questioned several million in claimed subcontract costs that the
         contractor did not fully support. The DCMA Houston contracting officer allowed one-
         half of the questioned costs but did not adequately explain the basis for allowing those
         costs. Subsequent events have raised serious questions about the allowability of the
         subcontract costs and the appropriateness of the contracting officer’s interim
         determination in allowing one-half of the costs. We are still reviewing this complex case
         and will provide our findings in a subsequent report of contracting officer actions on
         incurred costs audit reports involving Iraq reconstruction activities.

Desirable Cost Accounting Change Determination Not
Justified
         Contractor’s Cost Accounting Change. A DoD contractor changed its method of
         charging certain procurement costs by establishing two “Procurement Service Center”
         overhead pools 3 , one to accumulate procurement costs associated with employees
         stationed in the continental United States and another for employees stationed oversees.
         Prior to the change, the contractor accumulated these procurement costs using a single
         Procurement Service Center overhead pool. The Government paid approximately
         $1.1 million in increased costs over a 4-year period as a result of the contractor’s cost
         accounting change.

         FAR Criteria. FAR 30.603-2 addresses two types of cost accounting changes, unilateral
         and desirable changes. Under a unilateral change, contractors may not charge the
         Government for any increased costs caused by the change. Under a desirable change, the
         contractor may charge the Government for any increased costs due to the change.
         According to FAR 30.603-2(b)(3), some of the factors that the contracting officer should
         consider in determining if a change is desirable include, but are not limited to, whether:

                       “(i) The contractor must change the cost accounting practices it uses for
                       Government contract and subcontract costing purposes to remain in
                       compliance with the provisions of Part 31;

                       (ii) The contractor is initiating management actions directly associated
                       with the change that will result in cost savings for segments with CAS-
                       covered contracts and subcontracts over a period for which forward
                       pricing rates are developed or 5 years, whichever is shorter, and the cost
                       savings are reflected in the forward pricing rates; and

                       (iii) Funds are available if the determination would necessitate an
                       upward adjustment of contract cost or price.


3
  An overhead pool includes indirect costs (costs that cannot be charged to a contract on an individual basis) that are
incurred for or that only benefit an identifiable unit or activity of the contractor internal organization such as an
engineering or manufacturing department.


                                                           5
      DCAA Audit Report. In Audit Report No. 3311-2004K19500001, March 8, 2005,
      DCAA reported that the contractor’s cost accounting change is a unilateral change and
      recommended that the contracting officer immediately recover the $1.1 million in
      increased costs on Government contracts in accordance with FAR 52.230-2(a)(4)(ii).

      DCMA Houston Contracting Officer Determination. The contracting officer did not
      uphold the DCAA findings and recommendations. The contracting officer determined
      that the cost accounting practice change was desirable and reimbursed the contractor for
      the $1.1 million in increased costs. However, the contract file does not include adequate
      rationale in support of the contracting officer determination or any evidence that the
      contracting officer had considered the factors for determining if a change is desirable
      under FAR 30.603-2(b)(3). In fact, our review of the contract file did not disclose any
      evidence that the change met the factors outlined in the FAR. For example, the contract
      file did not include any evidence that the change was required for the contractor to
      remain in compliance with FAR Part 31, or that it would result in cost savings to the
      Government.

      In addition, the contracting officer did not comply with DoD Directive 7640.2,
      Paragraph 6.5.1., which required that contracting officers prepare a memorandum that
      includes the underlying rationale for such dispositions. As a result, the contracting
      officer may have improperly reimbursed $1.1 million for a cost accounting change that
      did not qualify as a desirable change.

      In the case of both the self-insurance credit and the cost accounting change, the DCMA
      Houston contracting officers did not seek expert advice from individuals having the
      requisite training and experience to properly analyze the facts and provide appropriate
      recommendations. DCMA has not developed a program whereby contracting officers
      can obtain advice on complex noncompliance issues such as these to help ensure that the
      contracting officer’s actions are sound. DCMA needs to develop such a program to
      ensure that the Government’s interests are protected when contracting officers do not
      possess the necessary training and experience.

Recommendations and Management Comments
Recommendation A.1.                     We recommend that the Director, Defense
Contract Management Agency develop a program whereby contracting officers may seek
advice and assistance from qualified personnel within the Agency on potential
noncompliances with the Federal Acquisition Regulation or cost accounting standards.

      Management Comments. The DCMA Executive Director concurred. DCMA issued a
      policy change notice requiring contract management Board of Reviews on specified
      actions based on dollar thresholds, or high risk, controversial, or precedent setting items.
      Second, DCMA reorganized to create a separate Contracts Directorate and functionally



                                               6
      align the contracting workforce. According to DCMA, this will result in greater access to
      functional expertise residing within the management chain of command.

Recommendation A.2.                     We recommend that the Commander, Defense
Contract Management Agency Phoenix implement a quality assurance procedure which
ensures that contracting officers adequately document the rationale and obtain applicable
approvals for their actions on audit reports prior to issuing the determination.

      Management Comments. The DCMA Executive Director concurred. DCMA Phoenix
      stated it would implement an internal review process to address the recommendation by
      March 31, 2009.




                                              7
B. Accounting System Determination Not Supported
   A DCMA Houston contracting officer did not adequately justify his actions on a DCAA
   audit report that outlined significant accounting system deficiencies. The contracting
   officer failed to recognize the significance of some of the DCAA-reported deficiencies
   and relied on the contractor’s new and untested procedures as his basis for resolving
   them. As a result, the DoD contracting components that conduct business with this
   contractor are not making informed decisions to account for the existence of these
   deficiencies.

   DoD Regulation on Contractor Accounting Systems. Defense Federal Acquisition
   Regulation Supplement (DFARS) Subpart 242.75, Contractor Accounting Systems and
   Related Internal Controls, provides policy for contractor accounting systems and
   procedures for following up on audit reports identifying significant accounting system or
   related internal control deficiencies.

   DCAA Audit Report. In Audit Report No. 3311-2006K11070001, November 1, 2006,
   DCAA outlined six significant deficiencies with a contractor’s accounting system and
   related internal controls. Three of the major deficiencies involved the following areas:

      •   Cost Transfers. The contractor did not have adequate procedures covering cost
          transfers between contracts, nor did they maintain sufficient documentation to
          demonstrate the reason for the transfer. The contractor made 36,000 cost transfers
          involving $424 million in contract costs during the first 6 months of 2006.

      •   Monitoring and Management Oversight. The contractor did not have procedures
          requiring periodic management reviews or provide any evidence that the
          contractor had conducted management reviews of the accounting system and
          related internal controls. According to DCAA, the lack of such procedures
          contributed to the mischarging or misallocations of $320 million on Government
          contracts between 2002 and 2004.

      •   Unallowable Costs. The contractor had not developed acceptable and reliable
          written policies and procedures for identifying and excluding unallowable costs
          from the contractor’s annual incurred cost claim. For example, the inadequate
          procedures contributed to the contractor’s failure to exclude millions of dollars in
          unallowable costs, including $10 million in unallowable executive compensation
          costs for 2000 through 2003.

   Based on these and other deficiencies, DCAA reported that the contractor’s overall
   accounting system and related internal controls were “inadequate in part” and
   recommended several changes to the contractor’s procedures and controls.




                                            8
        DCMA Houston Contracting Officer Determination. Despite the significant DCAA-
        reported deficiencies, the contracting officer maintained his “adequate” opinion of the
        accounting system. The contracting officer’s September 6, 2007 memorandum does not
        provide sufficient rationale for maintaining the adequacy of the accounting system or for
        resolving the DCAA-reported deficiencies. Discussed below is a summary of the
        contracting officer’s rationale for resolving the three major reported deficiencies and our
        review results.

            •    Cost transfers. The contracting officer resolved the deficiency by stating that his
                 primary concern was with the “quality” of the transfer description and supporting
                 documentation, not the volume of transfers (36,000 cost transfers in 6-months
                 involving $424 million). The contracting officer also stated that the contractor
                 revised its procedures to require more detailed transaction descriptions and
                 supporting documentation of transfers.

        We disagree with the contracting officer’s decision not to consider the volume of
        transfers as an important factor in his determination. As explained in the DCAA audit
        report, the volume of transfers in this case (36,000 over a 6-month period) is a strong
        indicator that the contractor does not have adequate controls to ensure proper recording
        of Government contract costs. DFARS 242.7501 emphasizes that contractors “shall
        maintain an accounting system and related internal controls which provide reasonable
        assurance that-….risk of misallocations and mischarges are minimized.” (emphasis
        added) Each of the 36,000 transfers represented the reversal of an error, and the volume
        clearly demonstrates that the contractor did not have adequate controls to prevent most
        errors before they occur. In addition, the contracting officer did not wait for DCAA’s
        review and testing of the revised procedures before resolving the deficiency.

            •    Monitoring and Management Oversight. The contracting officer resolved this
                 deficiency (which contributed to mischarging or misallocations of $320 million
                 over a 3-year period) by stating in part “Although (the contractor) has not
                 provided internal audits to the Government, this is not a contractual requirement.”
                 The contracting officer also justified his determination based on the contractor’s
                 submission of revised procedures and the contractor’s assertion that it had
                 subjected the system to external audits in accordance with the Sarbanes-Oxley
                 Act 4 .

          Defense Federal Acquisition Regulation Supplement 203.7001(a) recognizes the
          importance of management reviews wherein it states “A contractor's system of
          management controls should provide for….(4) Internal and/or external audits, as
          appropriate.” In addition, the contracting officer did not obtain evidence to substantiate
          the contractor’s assertion that it had actually performed audits in response to the
          Sarbanes-Oxley Act. Furthermore, the contracting officer did not take into account that
          audits performed in response to Sarbanes-Oxley focus on the effectiveness of the

4
 The Sarbanes-Oxley Act of 2002 introduced major changes to the regulation of corporate governance and financial
practice. Section 404 of the act requires management and the external auditor to report on the adequacy of the
company's internal control over financial reporting.


                                                       9
        company’s controls over financial reporting, not on those controls which ensure the
        allowability of claimed Government contract costs. Therefore, these audits may not
        have provided a sufficient basis for establishing the adequacy of the contractor’s
        accounting controls over Government contracts. Finally, the contracting officer did not
        obtain a DCAA opinion on the adequacy of the revised procedures before resolving the
        deficiency.

          •   Unallowable Costs. The contracting officer resolved the deficiency based on the
              contractor’s implementation of new procedures for identifying and excluding
              unallowable costs. We disagree with the contracting officer’s resolution of this
              deficiency because DCAA had not reviewed or tested the procedures to ensure
              they were effective in excluding unallowable costs.

      Since the contracting officer resolved the deficiencies and rendered the system adequate,
      the contracting officer did not advise the affected DoD contracting components of these
      deficiencies. As of August 8, 2008, eight months after the contracting officer resolved
      the deficiencies, the contractor had still not adequately corrected two of them–cost
      transfers and monitoring and management oversight–according to DCAA. DCAA
      anticipated issuing a follow-up report on the accounting system deficiencies by July 31,
      2009. The Government remains at risk for these deficiencies until they are fully
      corrected and tested. The contracting officer should have notified the DoD contracting
      commands on the status of the deficiencies to ensure that the DoD contracting commands
      make informed decisions regarding future business with this contractor.

Recommendations and Management Comments
Recommendation B.                    Upon receipt of the Defense Contract Audit Agency
follow-up report on the accounting system, we recommend that the Commander, DCMA
Phoenix, direct the contracting officer to:

   1. Take action on the report in accordance with Defense Federal Acquisition
      Regulation Supplement 242.7502 and prepare a determination memorandum that
      includes adequate rationale for the action.

      Management Comments. The DCMA Executive Director concurred. In addition,
      DCMA now requires a Board of Review for any contracting officer rejection of an
      auditor recommendation to disapprove or withdraw approval of a business system.

   2. Advise DoD contracting components of any significant deficiencies that the
      contractor has not corrected.

      Management Comments. The DCMA Executive Director concurred.




                                              10
3. Provide a copy of the determination memorandum referred to in
   Recommendation B.1 to the Defense Contract Audit Agency and the Office of the
   Assistant Inspector General for Audit Policy and Oversight.

   Management Comments. The DCMA Executive Director concurred.




                                      11
C. Need for Better Coordination on Estimating
   System Reviews at DCMA Philadelphia
   The DCMA Philadelphia contracting officer failed to consult with DCAA as
   DFARS 215.407-5 requires before she took final action on DCAA-reported estimating
   system deficiencies. By not consulting with DCAA and working as a team, the
   contracting officer put the Government at risk of misunderstanding the significance of the
   reported findings and not taking actions necessary to protect the Government’s interests.

   DoD Procedures for Conducting and Dispositioning Contractor Estimating
   System Reviews. DFARS Procedures Guidance and Information (PGI) 215.407-5-70,
   Disclosure, maintenance, and review requirements, outlines the responsibilities and
   procedures for conducting contractor estimating system reviews and dispositioning
   estimating system reports. It states that the contract auditor (DCAA) and the contract
   administration activities (DCMA) shall conduct estimating system reviews as a team
   effort.

   DCAA Estimating System Report. In Audit Report No. 6501-2007B24010001,
   DCAA reported the estimating system as “inadequate in part” based on two deficiencies
   that DCAA believed were significant. The deficiencies included:

      •   proposal files not being maintained in accordance with the contractor’s estimating
          manual; and

      •   complete proposal packages and support not being available for audit.

   DCAA had previously reported the same deficiencies in two prior audit reports (Audit
   Report Numbers 6501-2004B24010001 and 6501-2006B24010001).

   DCMA Philadelphia Contracting Officer Determination. The contracting officer did
   not uphold the DCAA position. In an October 22, 2007 letter to the contractor, the
   contracting officer determined that the reported deficiencies did not meet the criteria of a
   significant estimating system deficiency set forth in DFARS 215.407-5-70(a)(4). The
   contracting officer based her determination on an independent review conducted by a
   DCMA price analyst who reviewed some of the same proposals that DCAA had tested.
   Prior to issuing her determination, the contracting officer did not consult with DCAA on
   her review of the contractor response to the DCAA report, discuss any concerns she had
   with the significance of the DCAA-reported deficiencies, or coordinate with DCAA on
   the price analyst’s review. DCMA did not even include DCAA on distribution for a copy
   of the contracting officer determination as DFARS PGI 215.407-5-70(f)(4) requires.

   The contracting officer’s failure to consult with DCAA prior to making her determination
   was inconsistent with the DFARS PGI requirement to conduct estimating system reviews



                                            12
       as a team effort. The contracting officer’s actions also violated DFARS PGI 215.407-5-
       70(f)(3) which states:

                    “The ACO, in consultation with the auditor, will evaluate the contractor’s
                    response to determine whether-

                    (i)     The estimating system contains deficiencies that need correction;
                    (ii)    The deficiencies are significant estimating deficiencies that would
                            result in disapproval of all or a portion of the contractor’s estimating
                            system; or
                    (iii)   The contractor’s proposed corrective actions are adequate to
                            eliminate the deficiency.” (emphasis added)

       The contracting officer’s failure to consult with DCAA put the Government at risk of
       misunderstanding the reported findings and not taking action to protect the Government’s
       interests for potentially significant deficiencies. Consulting with DCAA and working as
       a team will help to ensure a consensus for identifying significant deficiencies and taking
       timely action to correct them.

Recommendation and Management Comments
Recommendation C.                     We recommend that the Commander, Defense
Contract Management Agency Philadelphia implement quality assurance procedures for
ensuring that the contracting officer works with the auditor as a team on future estimating
system reviews and consults with the auditor in evaluating the contractor response in
accordance with DFARS 215.407-5-70.

       Management Comments. The DCMA Executive Director concurred. DCMA
       Philadelphia established an Internal Review Process requiring pre-negotiation and post
       negotiation review by a contracting supervisor. The supervisor will ensure that the
       contracting officer consults with the auditors when evaluating the contractor's response.
       Additionally, the supervisor will ensure that the contracting officer documents the actions
       in accordance with DoD Instruction 7640.02. In March 2008, senior DCMA Philadelphia
       leadership also began holding quarterly meetings with senior DCAA regional leadership
       to discuss the status of all outstanding reportable audits, including estimating system
       audits.




                                                    13
D. Failure to Process CAS Noncompliances in
   Accordance with FAR 30.605
   DCMA Philadelphia and Houston contracting officers did not process CAS
   noncompliance audit reports in accordance with FAR 30.605 Processing
   Noncompliances. As a result, the Government risks paying increased costs on CAS-
   covered contracts and wastes Government resources by prolonging the noncompliance
   resolution process.

   Requirements for Processing Noncompliances. FAR Subpart 30.605, Processing
   Noncompliances, outlines the required contracting officer actions for evaluating and
   processing a reported CAS noncompliance. For example, the contracting officer must:

      •   Issue a notice of potential noncompliance to the contractor (or disagree with the
          auditor’s allegation) within 15 days after receiving the report [FAR 30.605(b)(1)];

      •   Obtain the contractor’s response to the noncompliance report within 60 days after
          issuing the notice of potential noncompliance [FAR 30.605(b)(2)], and

      •   Evaluate the contractor’s response and make a determination of compliance or
          noncompliance. (FAR 30.605(b)(3)).

   DCMA Noncompliance Processing. Our review of contracting officer actions
   on 22 CAS noncompliance reports identified 17 reports that disclosed significant
   contracting officer delays in evaluating and processing DCAA-reported CAS
   noncompliances. Our review revealed the following (See Appendix B for details):

      •   In 12 cases, contracting officers failed to issue the notice of potential
          noncompliance within the 15-day requirement, instead taking an average
          of 137 days.

      •   In 13 cases, contracting officers did not obtain contractor responses within the
          60-day requirement or take aggressive steps to obtain the responses once they
          were overdue. Even though contracting officers have taken 406 days
          (approximately 14 months) on average as of April 30, 2008 to obtain the
          contractor responses, contracting officers have only obtained 6 of
          the 13 responses.

         In 8 cases, contracting officers have taken 454 days (approximately 14 months)
          on average as of April 30, 2008 to decide whether a noncompliance exists in
          accordance with FAR 30.605(b)(3). In 2 of the 8 cases, contracting officers had
          as of April 30, 2008 not determined whether a noncompliance existed.




                                           14
      Overall, CAS noncompliance reports assigned to the DCMA Philadelphia and Houston
      offices have been open an average of 685 days (nearly 2 years) since DCAA issued the
      report (See Appendix B). The failure of these contracting officers to take timely and
      effective actions in response to CAS noncompliance reports have caused significant
      delays in correcting any potentially noncompliant practices and has delayed the recovery
      of any increased costs due to the Government. In addition, resolution of CAS
      noncompliance reports becomes more difficult over time since individuals having a
      detailed understanding of the issues may transfer or retire, or the records may become
      lost.

Recommendations and Management Comments
Recommendation D.1.                    We recommend that the Commanders, Defense
Contract Management Agency Maryland and Phoenix direct contracting officers to take
immediate action on the overage cost accounting standard noncompliance reports
transferred from Defense Contract Management Agency Philadelphia in accordance with
Federal Acquisition Regulation 30.605, Processing Noncompliances.

      Management Comments. The DCMA Executive Director concurred. As of
      November 25, 2008, DCMA has completed final action on six of the seventeen overage
      reports. In addition, DCMA is providing training with specific emphasis on FAR 30.605,
      assigning resources to address the noncompliances as quickly as possible, holding weekly
      status meetings, and conducting oversight of the FAR mandated response dates. The
      Executive Director of Contracts will review the status of overage audits each quarter. By
      March 31, 2009, DCMA planned to establish an Agency-wide performance objective
      requiring timely and effective processing of reportable audits.

Recommendation D.2.                     We recommend that the Commander, Defense
Contract Management Agency Philadelphia establish a quality assurance measure that
ensures contracting officer compliance with Federal Acquisition Regulation 30.605,
Processing Noncompliances.

      Management Comments. The DCMA Executive Director concurred. DCMA
      Philadelphia has designated a monitor to ensure that CAFU data is accurate, complete,
      and compliant with the FAR 30.605. The monitor will report all instances where
      contracting officers are not meeting deadlines to DCMA leadership so appropriate
      attention can be devoted to the problem. In addition, DCMA Philadelphia will add
      performance goals and objectives for processing and monitoring noncompliances in
      accordance with FAR 30.605.




                                             15
E. Inaccurate Contract Audit Follow-up Data
      The DCMA Houston, Philadelphia, and Virginia offices do not maintain accurate records
      of reportable contract audit reports in the contract audit follow up (CAFU) system. As a
      result, the CAFU data that these offices reported to the DoD IG during the semiannual
      periods ending September 30, 2006 through September 30, 2007 were not reliable and
      DCMA management, the DoD Inspector General, and Congress did not have accurate
      information on contracting officer actions taken in response to contract audit reports.

      Data Accuracy Requirements. DoD Directive 7640.2 included the following
      requirements:

         •   Paragraph 6.3 required the maintenance of accurate and complete information
             regarding the status of reportable audit reports from the time reports are received
             through final disposition; and
         •   Paragraph 6.3.4 required that DoD Components submit semiannual reports on the
             status of reportable contract audits to the DoD IG. It identified the types of audits
             that are reportable, such as reports on CAS noncompliances and internal control
             systems with findings and recommendations.

      Data Errors. Our review of the CAFU records for CAS noncompliance and internal
      control systems reports assigned to the DCMA Houston, Philadelphia, and Virginia
      offices disclosed:

         •   7 audits missing from the semiannual reporting of CAFU data, including 6 at
             DCMA Virginia and 1 at DCMA Houston (see Appendix C);
         •   8 records with incorrect resolution dates (see Appendix D);
         •   10 records with inaccurate disposition dates (see Appendix E); and
         •   3 records with incorrect status of actions taken (see Appendix F).

      The 6 missing audits at DCMA Virginia resulted from DCMA’s misunderstanding about
      whether reports issued by the DCAA Field Detachment office had to be included in the
      semiannual reporting of CAFU data (The DCAA Field Detachment office provides audit
      services on classified programs). Most of the remaining errors resulted from DCMA
      contracting officers failing to verify the accuracy of the data that DCAA entered in the
      CAFU automated system.

Recommendations, Management Comments, and
DoD IG Response
Recommendation E.1.                 We recommend that the Commander, Defense
Contract Management Agency Phoenix and the Director, Defense Contract Management


                                              16
Agency Virginia direct the contracting officers to add the seven audits missing from the
contract audit data and report the status of the contracting officer’s actions in accordance
with DoD Instruction 7640.02.

       Management Comments. The DCMA Executive Director partially concurred. DCMA
       did not agree that it should manually enter audit information received from the DCAA
       Field Detachment into the CAFU automated system. The DCMA Executive Director
       believes that the manual entry of DCAA Field Detachment reports could lead to
       compromise of secure information.

       DCMA recommends that DCAA Field Detachment enter all unclassified reportable
       audits into the DCAA Management Information System that feeds the CAFU automated
       system. DCMA believes that DCAA Field Detachment is in the best position to decide
       which audit reports are releasable.

       DCMA agreed to add any other missing audits not from DCAA Field detachment into the
       CAFU automated system, including the one missing audit at DCMA Phoenix.

       DoD IG Response. We request that the DCMA Executive Director reconsider his
       position not to add the six reportable DCAA Field Detachment audits in the CAFU
       system. DoD Instruction 7640.02 requires that DCMA maintain accurate and timely
       records on the status of reportable audits and report on their status semiannually to the
       DoD IG.

       DCMA has not demonstrated that a valid security concern exists with respect to the
       manual entry of DCAA Field Detachment reports. Because the six missing audit reports
       at DCMA Virginia are unclassified, adding them in the CAFU system and reporting their
       status to the DoD IG would not result in the compromise of secure information.
       Nevertheless, the DoD Instruction 7640.02 reporting requirements apply to all reportable
       audits regardless of security classification. DCMA, as well as all other DoD
       Components, should have the necessary controls in place to prevent the release of
       classified information as part of the CAFU reporting process. If entering the reportable
       audits into the automated CAFU system is a concern, DCMA has the option of instead
       providing the status of DCAA Field Detachment reportable audits directly to the DoD IG
       in accordance with Enclosure 3, Paragraph 1.b.(1)(d) of DoD Instruction 7640.02.
       However, DCMA does not have the option of simply excluding them in the DCMA
       semiannual reporting to the DoD IG.

       We disagree with the DCMA recommendation that DCAA Field Detachment enter its
       reportable audits into the DCAA Management Information System. DoD Instruction
       7640.02 does mandate the use of the DCAA Management Information System. Rather
       than use the DCAA Management Information System, DCAA Field Detachment prepares
       an Excel workbook listing of reportable audits as an added security measure to ensure
       that the listing does not contain any classified or sensitive information. This procedure
       satisfies the requirement in Enclosure 3, Paragraph 1.b.(2)(a) of DoD Instruction 7640.02,




                                                17
      requiring DCAA to provide a listing of reportable audits on a monthly basis. Therefore,
      we request that the DCMA Acting Director provide revised comments by May 8, 2009.

      We verified that DCMA added the one missing audit at DCMA-Phoenix into the CAFU
      automated system.

Recommendation E.2.                      We recommend that the Commanders, Defense
Contract Management Agency, Phoenix and Philadelphia, and the Director, Defense
Contract Management Agency Virginia, establish and implement quality assurance
processes to ensure the accuracy of the data reported in the contract audit follow-up
system.

      Management Comments. The DCMA Executive Director concurred. DCMA Phoenix
      and Philadelphia appointed a CAFU monitor who performs monthly reviews of CAFU
      data. DCMA Virginia updated its quality assurance plan in September 2008 and will
      implement the plan at the other two sites. DCMA anticipates completing the
      implementation by May 30, 2009. Additionally, the DCMA Mission Review Team will
      focus on CAFU practices and compliance with DoD Instruction 7640.02 during FY 2009
      site reviews.




                                             18
F. Untimely Resolution and Disposition
   Contracting officers did not complete their actions on 8 audits at DCMA Houston and
   14 audits at DCMA Philadelphia within the timeframes required by DoD Directive
   7640.2. Timely resolution and disposition of DCAA audit reports are critical for
   ensuring that the Government promptly recoups reported unallowable costs, improves
   contractor control systems, and corrects cost accounting practices that do not comply
   with the cost accounting standards.

   Timeliness Requirement. DoD Directive 7640.2 required the resolution of contract
   audit reports within 6 months and the disposition of contract audits within 12 months.
   Resolution of an audit report takes place when the contracting officer prepares a written
   action for responding to the reported findings. Disposition generally occurs when the
   contracting officer reaches a settlement with the contractor on the reported findings or
   issues a final decision under the Disputes Clause.

   Untimely Resolution. At DCMA Houston, contracting officers exceeded the
   6-month resolution requirement in 7 of 13 reports we reviewed. At DCMA Philadelphia,
   contracting officers exceeded the 6-month resolution requirement in 2 of 20 reports we
   reviewed. None of the contract files for these audits included adequate justification for
   exceeding the 6-month requirement. (See Appendix G for a listing of audit reports that
   exceeded the 6-month requirement.)

   Untimely Disposition. At DCMA Houston, contracting officers did not complete the
   disposition of 6 out of 13 audit reports within the required 12 months, including the
   5 audit reports that exceeded the 6-month resolution requirement and 1 additional report.
   At DCMA Philadelphia, contracting officers did not complete the disposition of 14 of 20
   audit reports within the required 12 months, including the 2 audit reports that exceeded
   the 6-month resolution requirement and 12 additional reports. The contract files did not
   include a valid justification for exceeding the 12-month disposition requirement.
   Appendix G shows the list of contract audit reports that exceeded the 12-month
   requirement.

   Lack of Management Controls. Management processes and procedures (internal
   controls) provide reasonable assurance that what needs to happen does happen. In our
   January 16, 2008 memorandum to the Commander DCMA Philadelphia, we noted that
   one of the DCMA Philadelphia contracting officers had a backlog of 39 audit reports that
   were awaiting action and exceeded the resolution and disposition timeframes by an
   average of 20 months.

   The backlog resulted from DCMA Philadelphia management’s failure to implement
   adequate internal controls for monitoring the effectiveness of the CAFU function. Had
   DCMA Philadelphia management prioritized and adequately monitored its CAFU
   function, they would have recognized the need to dedicate additional resources for


                                           19
       reducing the backlog. We noted that the DCMA Philadelphia contracting officer had an
       excessive workload involving multiple major defense contractors and billions of dollars
       in Government business. In 2007, the DCMA Philadelphia contracting officer position
       was vacant for two months and had experienced frequent personnel turnover. Since
       January 2008, DCMA Philadelphia has made some efforts to reduce the backlog which
       are reflected in this report. In addition, DCMA’s decision to transfer some of the
       workload to DCMA Maryland should help to focus more resources on the CAFU
       function at DCMA Philadelphia.

       DCMA Houston lacks management controls for ensuring an effective CAFU program. In
       addition to the significant number of overage audits, we found that DCMA Houston does
       not have quality assurance procedures covering CAFU and has not subjected its CAFU
       function to any periodic internal/management reviews of the DCMA Phoenix CAFU
       function since 2001. DoD Directive 7640.2, paragraph 5.2.3, required that the
       Component perform periodic evaluations of the contract audit follow-up process to
       ensure that it is working effectively.

       OMB Circular No. A-123, “Management’s Responsibility for Internal Control”,
       December 21, 2004 also states: “Continuous monitoring and testing should help to
       identify poorly designed or ineffective controls and should be reported upon
       periodically.” OMB Circular No. A-123 further states:

                Monitoring the effectiveness of internal control should occur in the normal course of
                business. In addition, periodic reviews, reconciliations, or comparisons of data
                should be included as part of the regular assigned duties of personnel. Periodic
                assessments should be integrated as part of management’s continuous monitoring of
                internal control, which should be ingrained in the agency’s operations.

       The lack of management attention and oversight of the CAFU function at DCMA
       Philadelphia and DCMA Houston contributed to the untimely resolution and disposition
       actions and other CAFU weaknesses cited in this report. When management
       appropriately identifies the CAFU function as a key process, the resolution and
       disposition of audit issues are more visible, they are trackable, and they receive higher
       priority.

Recommendations and Management Comments
Recommendation F.                   We recommend that the Commanders, Defense
Contract Management Agency Philadelphia and Phoenix establish quality assurance
procedures requiring contracting officers and their staff to:

1. Resolve and complete the disposition of contract audit reports within the required
   timeframes or include written justification in the contract file for any resolutions or
   dispositions that occur beyond the specified timeframes.




                                                    20
     Management Comments. The DCMA Executive Director concurred. DCMA will
     establish a plan for implementing the recommendation by April 30, 2009. In addition,
     DCMA planned to establish an Agency-wide performance objective by March 31, 2009,
     which will include an objective requiring timely and effective processing of reportable audits.

2. Make the contract audit follow-up function a regular part of the Management
   Control Review program to measure success in improving actions on audit findings
   and recommendations.

     Management Comments. The DCMA Executive Director concurred. DCMA
     Philadelphia and Phoenix will implement the recommendation by June 30, 2009.

3. Perform a management control review of the contract audit follow-up function in
   FY 2009.

     Management Comments. The DCMA Executive Director concurred. DCMA will
     perform management control reviews at DCMA Philadelphia and Phoenix by
     September 30, 2009.




                                               21
G. Contract Audit Follow-Up Not Addressed in
   Performance Appraisal
      DCMA Houston is not evaluating one of its contracting officers on his actions to
      effectively and timely complete the disposition of contract audit reports. In accordance
      with DoD Directive 7640.2, DCMA Houston was required to establish employee
      performance measures related to contract audit follow-up that recognize and emphasize
      the significance of the actions taken on contract audit findings.

      DoD Directive Requirement. DoD Directive 7640.2, paragraph 5.2.4, required DoD
      Components to “ensure that performance appraisals of appropriate acquisition officials
      reflect their effectiveness in resolving and dispositioning audit findings and
      recommendations in a timely manner, while fully protecting the Government’s interests.”

      DCMA Houston Performance Appraisals. We reviewed the performance appraisals
      of DCMA contracting officials responsible for contract audit follow-up action. The
      performance appraisal for one of two contracting officials at DCMA Houston did not
      adequately address the employee’s effectiveness in contract audit follow-up as DoD
      Directive 7640.2 required. DCMA management must hold contracting officers
      accountable for their actions taken to resolve contract audit reports.

Recommendation and Management Comments
Recommendation G.                    We recommend that the Commander, Defense
Contract Management Agency Phoenix revise the performance appraisal of the Defense
Contract Management Agency Houston contracting officer to measure his performance in
resolving and completing the disposition of contract audit reports in accordance with DoD
Directive 7640.2, paragraph 5.2.4.

      Management Comments. The DCMA Executive Director concurred. DCMA is
      developing an agency-wide job objective for CAFU that it planned to implement by
      March 31, 2009.




                                              22
Appendix A. Scope and Methodology
We evaluated the actions that the DCMA Houston, Philadelphia, and Virginia offices took on 39
audit reports addressing potential cost accounting standard (CAS) noncompliances and internal
control systems inadequacies. The table below depicts the number of audit reports we selected
by office and audit report type.

           Table: Number of Audit Reports Selected for Review
                               Type of Audit Report
                              CAS         Internal Control   Total
            DCMA Office Noncompliances        Systems       Reports
            Houston               6                7           13
            Philadelphia        14                 6           20
            Virginia              2                4             6
                     Total      22               17            39


We selected these audits from the semiannual reporting periods September 30, 2006 through
September 30, 2007. We reviewed the 39 audits to determine whether:

       •   contracting officer actions on DCAA-reported CAS noncompliances and internal
           control system recommendations complied with the FAR, DoD Directive 7640.2, and
           other applicable statutes, regulations, and DoD policy;
       •   contracting officials effectively completed the disposition of all significant audit
           findings and included sound rationale in the contract file for not upholding DCAA-
           reported CAS noncompliances and internal control system recommendations;
       •   audit reports were resolved and their disposition completed within the required
           timeframes (6 months for resolution and 12 months for disposition) and, if not,
           whether any delays were justified and documented in the contract file;
       •   CAFU system data were accurate;
       •   periodic evaluations of the CAFU program were conducted to ascertain CAFU
           program effectiveness; and
       •   contracting officials were evaluated on their effectiveness in timely resolving and
           completing the disposition of audit findings.
We performed this review from November 2007 through September 2008.

Use of Computer-Processed Data. DCMA uses a Web-based CAFU database to maintain
and report the status of contract audit reports. We did not rely on the computer-processed data
generated by the CAFU database. We traced the semiannual report data from the CAFU
database to source documents.




                                               23
Prior Coverage. In the last 5 years, we issued four other reports related to DCMA actions on
DCAA audit reports.

   •   DoD IG Report No. D-2007-6-010, “Reimbursement of Settlement Costs at Defense
       Contract Management Agency Melbourne,” September 28, 2007

   •   DoD IG Report No. D-2007-6-009, “Actions on Reportable Contract Audit Reports by
       the Defense Contract Management Agency’s Northrop Grumman El Segundo Office,”
       September 28, 2007

   •   DoD IG Report No. D-2007-6-004, “Defense Contract Management Agency Virginia’s
       Actions on Incurred Cost Audit Reports,” April 20, 2007

   •   DoD IG Report No. D-2005-6-003, “Defense Contract Management Agency Santa Ana
       Office’s Actions on Incurred Cost Audits,” March 17, 2005




                                              24
Appendix B: Days Taken to Process CAS
            Noncompliances
                                        Number of      Number of      Number of Days
                                       Days Between   Days Between         Between
                                       Audit Report   Initial Notice      Contractor
                                       and Issuance        and          Response and
                                         of Initial    Contractor        Compliance    Total Number
                           Audit          Notice        Response       Determination   of Days Since
                           Report        (Note 1)        (Note 2)          (Note 3)    Audit Report
   Audit Report No.         Date                             (As of April 30, 2008)
DCMA Philadelphia
  6501-2003B19200008      9/26/2003        12              61               44                 117
  6501-2004B19200005      10/8/2004        25              30              739                 794
  6501-2005B19200001      12/29/2004        5             672              140                 817
  6501-2005B19200002      6/28/2005        28           1,009*               --               1,037
  6501-2005B19200003      6/28/2005        29           1,008*               --               1,037
  6501-2005B19200004      6/28/2005        29           1,008*               --               1,037
  6501-2006B19200001      8/18/2006         4             258              350                  612
  6501-2006B19200002       9/26/2006        9             573*               --                 582
  6501-2006B19200003      9/26/2006         9             573*               --                582
  6501-2007B19200001      3/27/2007        66             116              218*                400
  6501-2007B19200003      3/27/2007       294             106*               --                400
  6501-2007D19200001       8/3/2007       165             106*                                 271
  6501-2007D19200002      8/13/2007       155             106*               --                261
       Subtotal Average                    64             433              298                  611
DCMA Houston
  3311-2004K19200001      8/6/2004         18              --            1,164                1,182
  3311-2004K19200003      11/9/2004       265             63               940*               1,268
  3311-2006K19200001       4/2/2006       759*             --                --                 759
  3311-2006K19200003      3/24/2006       458              --               35                  493
       Subtotal Average                   375             63               713                  926
         Total Average                    137            406               454                  685

*The contracting officer did not complete these actions as of April 30, 2008.
Notes:

1. This column represents the days elapsed between the audit report date and issuance of the
notice of potential compliance required by FAR 30.605(b)(1) (or until April 30, 2008 if the
contracting officer has not issued the notice). FAR 30.605(b)(1) requires that the contracting
officer issue a notice of potential noncompliance to the contractor within 15 days after receiving
the audit report. In 12 cases, contracting officers did not issue the notice within the 15-day
requirement. Contracting officers took 137 days on average report to issue the notice of potential
noncompliance. Regarding Audit Report No. 3311-2006K19200001, the contracting officer had
not yet issued the notice of potential noncompliance even though the contracting officer received
the audit report 759 days ago (approximately 2 years).



                                                 25
2. This column represents the days elapsed between issuance of the 15-day notice and receipt of
the contractor response (or until April 30, 2008 if the contracting officer has not received the
response). FAR 30.605(b)(2) requires that the contracting officer obtain the response within 60
days. In 13 cases, contracting officers did not obtain the contractor response within the 60-day
requirement. Contracting officers took 406 days on average (over 1 year) after issuing the notice
of potential noncompliance to obtain contractor responses to the reported potential
noncompliances. However, contracting officers had still not obtained contractor responses for 8
audit reports indicated with an "*" after the number of days in this column.

3. This column represents the days elapsed from receipt of the contractor response until the
contracting officer makes a compliance determination in accordance with FAR 30.605(b)(3) (or
until April 30, 2008 if the contracting officer has not yet made a determination). In eight cases,
contracting officers expended 454 days (over 1 year and 3 months) on average thus far to decide
whether a noncompliance exists. In 2 of the 8 cases, contracting officers had still not made a
noncompliance determination (audit reports indicated with an “*” after the number of days in
this column).




                                                26
Appendix C. Reportable Audits Not Being Reported

                    Audit Report Number             Audit Report Date
                  DCMA Virginia
                    97112005E13010002                   03/21/2006
                    97112007E13010001                    09/27/07
                    97112004E14980006                   03/15/2007
                    97112006E19200001                   03/26/2007
                    97112006E19200002                   03/26/2007
                    97112006E24090001                   04/30/2007
                  DCMA Houston
                    3311-2006K11010001                   12/1/2006


Note: DCMA did not include these reportable audits in the semiannual data reported to the DoD
IG. All of the audits assigned to DCMA Virginia involve audits issued by a DCAA Field
Detachment office. DCMA mistakenly thought that it was not required to include any audits
issued by DCMA Field Detachment in its semiannual reporting to the DoD IG.




                                             27
Appendix D. Reported Resolution Date Inaccuracies
                                                               Resolution
                                                                  Date
                                                 Actual         Reported
                                                Resolution     in CAFU*
                  Audit Report Number             Date           System   Note
                 DCMA Houston
                  2131-2004F10503001             5/13/2005       4/4/2006      1
                  3311-2005B24090001             2/15/2008      3/9/2006       1
                  3311-2005K12030001             10/3/2006      6/16/2008      1
                  3311-2005B11010001                  --        9/28/2007      2
                  3321-2006K11070001              9/6/2007      9/28/2007      1
                  6331-2005N13020001             4/10/2007      7/18/2007      3
                  3321-2005K19500001             11/1/2007      4/10/2007      3
                  3311-2004K19200003              8/1/2005      7/18/2005      1

Notes:

1. The contracting officer inaccurately reported the resolution date in the CAFU system as
   evidenced by the date of pre-negotiation memorandum included in the DCMA contract file.

2. The contracting officer should not have reported these audits as resolved since the
   contracting officer had not completed the resolution action.

3. Although the contracting officers reached resolution on these audits, they failed to enter the
   resolution date in the CAFU system.


*Contract Audit Follow-up




                                                28
Appendix E. Reported Disposition Date
            Inaccuracies
                                                           Date Reported by
                                     Actual Date of           DCMA in
         Audit Report Number          Disposition           CAFU* System             Note
      DCMA Philadelphia
        6501-2004B24010001              5/24/2005               2/15/2006              1
        6501-2005B11070001                  --                  4/04/2006              2
      DCMA Houston
          2131-2004F10503001            5/13/2005               4/4/2006               1
          3311-2005B24090001            2/19/2008              3/10/2006               1
          3311-2005K12030001            10/3/2006              6/16/2008               1
          3311-2005B11010001                 --                9/28/2007               2
          3321-2006K11070001             9/6/2007                   --                 3
          6331-2005N13020001            4/10/2007                   --                 3
          3321-2005K19500001            11/1/2007              5/08/2008               1
          3311-2004K19500001            10/3/2007              12/13/2007              1

Notes:

1. The contracting officer inaccurately reported the disposition date in the CAFU system as
evidenced by the post-negotiation memorandum date.

2. The DCMA contract file did not include a post-negotiation memorandum that supports the
disposition date entered in the CAFU system. Therefore, the contracting officer should not have
entered a disposition date for these reports.

3. Although the contracting officers took final action on these reports, they did not enter the
disposition dates in the CAFU system.


*Contract Audit Follow-up




                                                29
Appendix F. Reported Status Inaccuracies

                                     Actual Status       Status Reported in
         Audit Report Number           of Audit           CAFU* System            Note
         DCMA Philadelphia
           6501-2005B11070001           Resolved             Dispositioned          1
         DCMA Houston
           3311-2005K12030001         Dispositioned           Unresolved            2
           3321-2005K19500001         Dispositioned            Resolved             2

Notes:

1. DCMA Philadelphia inaccurately reported the status of the audit as dispositioned. DCMA
   should report it as resolved because the contracting officer has only communicated his
   position to the contract and received their response.
2. DCMA Philadelphia inaccurately reported the status of these audits as unresolved or
   resolved. The contracting officer should have reported them as dispositioned since the
   contracting officer took final action.


*Contract Audit Follow-up




                                               30
Appendix G. Untimely Resolution and Disposition

                                                      Number of             Number of
                                                     Months Past           Months Past
                                    Audit              6-Month               12-Month
                                    Report          Resolution Rule      Disposition Rule
      Audit Report Number            Date                   (As of April 30, 2008)
     DCMA Houston
      3311-2005B24090001           9/29/2005              22                    16
      3321-2006K11070001           11/1/2006              5                     --
      6331-2005N13020001           8/21/2006              2                     --
      3311-2004K19200001            8/6/2004              --                    27
      3311-2004K19200003           11/9/2004              3                     29
      3311-2004K19500001            3/8/2005              25                    19
      3311–2006K19200001            4/2/2006              18                    12
      3311–2006K19200003           3/24/2006              10                    4

     DCMA Philadelphia
       65012003B19200008          9/26/2003                --                   17
       65012004B19200005          10/8/2004                --                   14
       65012005B19200001          12/28/2004               --                   15
       65012005B19200002          6/28/2005                --                   22
       65012005B19200003          6/28/2005                --                   22
       65012005B19200004          6/28/2005                --                   22
       65012006B19200001          8/18/2006                --                   8
       65012006B19200002          9/26/2006                --                   7
       65012006B19200003          9/26/2006                --                   7
       65012007B19200001          3/27/2007                --                   1
       65012007B19200003          3/28/2007                4                     1
       65012005B11070001          9/28/2005                --                   19
       65012005B13010001           1/9/2006                --                   16
       65012005B13020001          5/26/2005                1                    23


Note: This is a listing of reports that exceeded the 6-month requirement for resolution and/or the
12-month requirement for disposition contained in DoD Directive 7640.2. The negotiation files
for these reports did not include adequate justification for exceeding the 6 and 12-month
requirements.




                                               31
32
Defense Contract Management Agency
Comments


                                             DEFENSE CONTRACT MANAGEMENT AGENCY
                                                          635DWALKER LANE . SUITE 300
                                                        Al.VWoIORlA.. VIRGINIA
                                                                             22311).3228




 I'Rll'LY
 RkFER TO    DCMA- AQ                                                                       NOV 25 3Ill

            MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT POLICY
                    AND OVERSIGHT. DEPARTMENT OF DEFENSE


            SUBJECT:          Response to DOOIG Drat\ Report on Defense Contract Management Agency
                              Actions on Audits of Cost Accoullting Stamlards and Intcmal Control Systems
                              at 000 Contractors Involved in Iraq Reconstruction Activities (Project No.
                              D2008-DIPOAI-0086.000)

                    This is our response to your September )0. 2008 memorandum TC<Iuc:sting
            management comments with each finding and recommendation contained in the subject draft
            report. The following is provided as our comments:




                                   For 000 IG Consideration Only - Redacted




            COllllll fmts rf'garllillg RUt/i'IfIlf'lIIl utiPlIs:

            ReCOnlllle"datioll A I:
            We recommend that the Director. Defense Contract Management Agency develop a program
            wht. rcby contracting officers may seck advicc and assistance fTom qualified personnel within
            thc Agcncy on potential noncompliances with the FAR or cost accounting standards.




                                                                         33
Response:
Concur. DClvlA has taken two actions to address this recommendation. First, DClvlA issued
a policy change notice on November 12,2008, (Attached) requiring contTact management
Board of Reviews on specified actions based on dollar thresholds or high risk, controversial,
or precedent setting items. Contracting Officers may seek advice or assistance from these
Boards of Reviews on issues involving the FAR or cost accounting standards. Second,
DCMA has reorganized to create a separate Contracts Directorate throughout the Agency.
DCMA Tasking Memorandum 08-137, dated January 2008, (Attached) directed the
contracting workforce be aligned functionally, i.e., all contracting personnel will report to,
and be directly supervised by, a person in the contracting career field. This will result in
greater access to functional expertise residing within the management chain of conunand.

RecOlllmendation A 2:
We recommend that the Commander, Defense Contract Management Agency Phoenix
implement a quality assurance procedure which ensures that contracting officers adequately
document the rationale and obtain applicable approvals for their actions on audit reports prior
to issuing the detetmination.

Response:
Concur. DCMA Soldier Systems & CAP Phoenix will implement an internal CMO Review
Process to ensure that contracting officers adequately document the rationale and obtain
applicable approvals for their actions on audit reports pl10r to issuing the determination by
March 31, 2009.

Recommendation B 1:
Upon receipt of the Defense Contract Audit Agency follow-up report on the accounting
system, we recommend that the Commander, DCMA Phoenix, direct the contracting officer
to take action on the report in accordance with Defense Federal Acquisition Regulation
Supplement 242.7502 and prepare a detennination memorandum that includes adequate
rationale for the action.

Response:
Concur. Upon receipt of the follow-up report, the ACO will take appropriate action in
accordance with DFARS 242.7502 and prepare any required memorandum in accordance
with the regulation. In addition, the new policy requires a Board of Review for any ACO
rejection of a recommendation to disapprove or withdraw approval for any Business System.

Recommendation B 2:
Upon receipt of the Defense Contract Audit Agency follow-up report' on the accounting
system, we recommend that the Commander, DCMA Phoenix, direct the contracting officer
to advise DoD contracting components of any significant deficiencies that tlle contractor has
not corrected.




                                           2




                                                     34
Response:
Concur: Upon receipt ofthe follow-up report, any accounting system deficiencies will be
provided to the DoD contracting components.

Recommendation B 3:
Upon receipt of the Defense Contract Audit Agency follow-up report on the accounting
system, we recommend that the Commander, DCMA Phoenix, direct the contracting officer
to provide a copy of the determination memorandum refelTed to in Recommendation 8.1 to
the Defense Contract Audit Agency and the Office of the Assistant Inspector General for
Audit Policy and Oversight.

Response:
Concur. Upon receipt ofthe follow-up report, the determination memorandum will be
provided to DCAA and the Office of the Assistant Inspector General for Audit Policy and
Oversight.

Recommendation C:
We recommend that the Commander, Defense Contract Management Agency Philadelphia
implement quality assurance procedures for ensuring that the contracting officer works with
the auditor as a team on future estimating system reviews and consults with the auditor in
evaluating the contractor response in accordance with DFARS 215.407-5-70.

Response:
Concur. DCMA Philadelphia has established an Internal Review Process that requires pre-
negotiation and post negotiation review by a contracting supervisor, a level above the
contracting officer. The reviewing supervisor will ensure that the auditors are consulted when
evaluating the contractor's response. Additionally the reviewer will ensure that the actions
are documented and in accordance with DODI 7640.02. Further, beginning in March 2008,
senior DCMA Philadelphia leadership (1102 Group Chief, CAFU monitor and Chief
Counsel) meet with senior DCAA regional leadership on a quarterly basis to review all
outstanding items on CAFU database that include estimating system reviews. These quarterly
meeting insure that the two Agencies are working collaboratively on all open audits and
provide a forum to discuss improvements in the process.

Recommendation D 1:
We recommend that the Commanders, Defense Contract Management Agency Maryland and
Phoenix direct contracting officers to take immediate action on the overage cost accounting
standard noncompliance reports transfelTed from DCMA Philadelphia in accordance with
Federal Acquisition Regulation 30.605, Processing Noncompliances.

Response:
Concur. DCMA Maryland and DCMA Soldier Systems & CAP - Phoenix are taking action
to resolve and disposition the open CAS noncompliances which were transferred fi'om
DCMA Philadelphia. Actions taken include h'aining with specific emphasis on FAR 30.605,
assigning resources to address the noncompliances as quickly as possible, weekly status
meetings, and oversight regarding the FAR mandated response dates. To date, six of the
seventeen reports identified have been closed. In addition, the Executive Director of


                                          3




                                                  35
     Contracts will review the status of overage CAFU items each quarter with each Division.
     Finally, DCMA is establishing an Agency-wide perfonnance objective for ACOs that require
     timely and effective processing of any CAFU reportable audits. We plan to implement the
     update perfonnance objective by March 31, 2009.

     Recommendation D 2:
     We recommend that the Commander, Defense Contract Management Agency Philadelphia
     establish a quality assurance measure that ensures compliance with FAR 30.605, Processing
     N oncompliances.

     Response:
     Concur. DCMA Philadelphia has designated an experienced 1102 individual as the monitor
     for the CAFU data base to insure it is current, accurate and complete, and complies with FAR
     30.605. The monitor is also responsible for reporting to DCMA leadership all instances
     where CAFU deadlines are not being met so appropriate attention can be devoted to the
     problem. In addition, DCMA Philadelphia will add to ACOs' perfonnance goals non-
     compliance processing objectives per FAR 30.605 to comply with the 15 day and 60 day
     action times after receipt of the noncompliance. Further, supervisors' objectives will include
     monthly review of the ACOs' perfonnance.

     Recommendation E 1:
     We recommend that the Commander, Defense Contract Management Agency Phoenix and
     the Director, Defense Contract Management Agency Virginia direct the contracting officers
     to add the seven audits missing from the contract audit database and report the status of the
     contracting officer's actions in accordance with DoD Directive 7640.2.

     Response:
     Partially concur. We do not agree that DCMA should manually enter audit information
     received from DCAA Field Detachment into the DCMA electronic system, CAFU eTools.
     As a general rule, manual entry decisions by personnel who are not knowledgeahle of the
     security requirements of DCAA Field Detachment reports could lead to compromise of secure
     information. As a result, we recommend that DCAA ensure that all reportable audits that are
     not classified are entered into their DMIS system which feeds the CAFU data into DCMA
     eTools for tracking and reporting. DCAA is in the best position to decide which ones are
     releasable, which ones would have no impact to security if infonnation was obtained by
     someone who did not have a need to know. Any missing audits which are not from DCAA
     Field Detachment will be entered into the CAFU eTools system by 28 November 2008.

     RecOlllmendation E 2:
     We recommend that the Commanders, Defense Contract Management Agency, Phoenix and
     Philadelphia, and the Director, Defense Contract Management Agency Virginia, establish and
     implement quality assurance processes to ensure the accuracy of the data reported in the
     contract audit follow-up system.

     Response:
     Concur. DCMA Phoenix, Philadelphia and Virginia will establish and implement quality
     assurance processes to ensure the accuracy of the data reported in the contract audit follow-up
     system. First, the DCMA Phoenix and Philadelphia have a CAFU monitor who is perfonning


                                                4


..




                                                          36
    monthly reviews of their CAPU data and is apprising their CMO and Division leadership of
    all instances where CAPU deadlines are not being met and data is not current. DCMA
    Virginia established a quality assurance plan in September 2006 which was updated
    September 2008 and submitted to the DoDIG for review. After the DoDIG review ofthe plan
    is complete, this plan will be implemented at the other two sites. The estimated date to have
    the plan implemented is May 30, 2009.

    Additionally, the DCMA Mission Review Team will focus on CAFU practices and
    compliance to DODI 7640.02 during PY 2009 site reviews. Their review will include data
    reliability, and the results of the review will be provided to DCMA locally and to HQ for
    action.

    Recommendation F 1:
    We recommend that the C;ommanders, DCMA Philadelphia and DCMA Phoenix establish
    quality assurance procedures requiring contracting officers and their staff to resolve and
    complete the disposition of contract audit reports within the required timeframes or include
    written justification in the contract file for any resolutions or dispositions that occur beyond
    the specified timeframes.

    Response:
    Concur: A quality assurance plan that promotes timely resolution and disposition, and
    requires written justification when the due dates are not met, will be established by April 30,
    2009. In addition, DCMA is establishing an Agency-wide performance objective for ACOs
    that require timely and effective processing of any CAFU reportable audits. We plan to
    implement the revised performance objective by March 31, 2009.

    Recommendation F 2:
    We recommend that the Commanders, DCMA Philadelphia and DCMA Phoenix establish
    quality assurance procedures requiring contracting officers and their staff to make the contract
    audit follow-up function a regular part of the Management Control Review program to
    measure success in improving actions on audit findings and recommendations.

    Response:
    Concur. DCMA Philadelphia and Phoenix will establish quality assurance procedures
    requiring contracting officers and their staff to make the contract audit follow-up function a
    regular pati of the Management Control Review program to measure success in improving
    actions on audit findings and recommendations by June 30, 2009.

    Recommelldatioll F 3:
    We recommend that the Commanders, DCMA Philadelphia and DCMA Phoenix establish
    quality assurance procedures requiring contracting officers and their staff to perfonn a
    management control review of the contract audit follow-up function in PY 2009.

    Response:
    Concur. A management control review ofCAPU will be performed at DCMA Philadelphia
    and Phoenix by September 30,2009.




                                                 5

.....




                                                      37
Re~Ollllll ellllutioll G:
We rewmmcnd that the Conunandi,,"T, Defense Contract Management Agency I'hocnix revise
thc pcrlomllllncc appraisat of the Defense Contract Management Agency HOLlston contracting
ofliccr to ml!aSLlre his perfonnancc in resolving and complcring the disposition of contract
audit repons in accordance with DoD Directive 7640.2, parllgraph 5.2.4.

Re~p'JII.\·t:
ConcLlr. As discLlsscd in our response to recommendation D I. DCMA HcadqLlIlfl...-r.; is
currently dcveloping a job objective for CAFU for LIse throLlghoLlt the Agency. We plan for
the standard job objective 10 be implemented by March 31, 2009.

       If you have IIny qucscions concerning OLlr responses. please COllt(lCI Mr. Gerry Reichel,
Deputy Director of the Cost & Pricing Branch at (703) 428-7607 or !!crty.reichclilidema.mil.
or Glen Gulden at (703) 428- 1009 or glcnn.gLlldt:n@dcma.mil.



                                                   tp"?7
                                                    DAVIDE~ I
                                                              )
                                                     Executive Director
                                                     Contracts

Enclosures as stated




                                           6




                                                    38
Chqnge to DCMA Instruction, Contract Management Boards of Review, Initial is...        Page 1 of 1

Instruction Change Notice No. 09-051
Subject: Change to DCMA Instruction,CQJJJ[agtJ.\,1911flgeJnejJLe.Q.9[Q~J?f Re.yleY!, Initial issue
as an "interim instruction"
IssuefEffective Date: November 12, 2008
Target Audience: Division Contracts Directors, CMO Contracts Directors, ACOs, DACOs,
CACOs, TCOs                                                                       .

Summary of Instruction Changes:

   • Contract management boards of review shaH be required for specified contracting
     actions. These boards will ensure reasonable exercise of judgment and adequate
     documentation in support of decisions by our Administrative Contracting Officers (ACOs),
     Divisional ACOs, Corporate ACOs, and Terminations Contracting Officers.
   • The subject instruction establishes:
         • A board of review requirement at the Headquarters and Division levels for specified
           contracting actions .
         • The contracting actions that require a board of review.
   • The policy contained in this instruction is interim direction. Final direction will be issued
     upon review of field comments and revision as necessary.

Implementation Guidance/Tools/Training:

   • Action: Comments on this interim instruction should be submitted to the point of contact
     listed below by January 7, 2009.
   • Immediate issuance and effective date by direction
   • Policy change checklist - not used
   • Your feedback on this policy change - Policy Change Feedback/Survey

Point of Contact for Further Information:
.t;Jjf;f!i;LeiO.l\,iQ)lg, DCMA-AQCF, 703-428-3582




http://guidebook.dcma.mil/282finstructionschg1.htm                                      11/14/2008




                                                     39
F"dn9tional Alignment of Contracting Workforce (TASKING)                                Page 1 of3

Tasking Memorandum No. 08-137
Memorandum For Directors, DCMA Product Divisions; Commander, DCMA International;
Director, Special Programs Division; Commanders/Directors, DCMA Contract Management
Offices (CMOs)
Subject: Functionai Alignment of Contracting Workforce (TASKING)
Date: January 30,2008
Suspense Date: May 15, 2008
Target Audience Heads-Up: AU DCMA

   • Requirement(s):
       • This tasking requires that the Agency's Contracting workforce be aligned
         functionaliy, i.e., all contracting personnel will report to and be directly supervised by
         a person in the contracting career field (except for the Senior Contracting positions
         identified below).
       • Senior Contracting positions will be established in accordance with the direction
          below.
             • Divisional Contracts Director Positions. Each Division (the four Product
                Divisions, International, and Special Programs) will establish a GS-1102
                Contracts Director position reporting directly to the Commander/Director of that
                Division. In the Product Divisions, the position will be at the GS-15 level.
             • Contract Management Office Contracts Director Positions. Because of
                different organizational structures among the Divisions, and in some cases,
                different organizational structures among the Contract Management Offices
                within a single Division, Divisions are given a fair degree of flexibility in
                establishing these positions, but must adhere to the requirements below:
                    • Each Primary Contract Management Office that is a contract receipt point
                      and has a contract workload will establish a GS-1102-14 Contracts
                      Director position reporting directly to the Commander/Director of that
                      Contract Management Office.
                    • Some Product Divisions have established product-oriented
                      organizations. Some of th ese organizations are called Contract
                      Management Offices, but are not contract receipt points and do not have
                      a contract workload per se (e.g., DCMA Missile Operations, DCMA
                      Aircraft Integrated Maintenance Operations Center). Such organizations
                       are not required to have a Contracts Director position. Instead, they may
                       choose to place the Contracts Director position at the tertiary Contract
                       Management Offices that are administering contracts.
                    • Tertiary (or Streamlined) Contract Management Offices vary greatly in
                       terms of size and workload Some tertiary Contract Management Offices
                       are large organizations that are "tertiary" only because of the
                       establishment of the product-oriented organizations mentioned above.
                       The choice as to whether to place a GS-11 02-14 Contracts Director or a
                       GS-11 02-13 Contracts Ch jef at these offices is left to the discretion of the
                       Contract Management Office Commander/Director with the concurrence
                       ofthe Division Director. If the decision is to go with a GS-11 02-13
                       Contracts Chief, that position will report to either the Contracts Director of
                       the primary Contract Management Office or the head of the tertiary
                       Contract Management Office.
              • Many organizations are already organized in this fashion and in others this
                requirement can be achieved th rough reassignment of the current staff. Only
                individuals possessing a DAWIA Level III Contracting Certification and who


http://home.dcma.mil/Guidebookl230idc08-137.htm                                          11114/2008




                                                   40
r:U[lctional Alignment of Contracting Workforce (TASKING)                                 Page 2 of 3

                   previously held a permanent 1102 position (or a military equivalent position)
                   are eligible for assignment to the Contracts Director and Contracts Chief
                   positions. Developmental or temporary assignments do not constitute
                   sufficient experience for assignment to these positions .
                 • In the event these positions can't be filled through internal reassignment, or
                   reaSSignments among other local offices, competitive procedures will be used
                   to fill the positions. If competitive procedures are used:
                        • The selecting official for the Division Contracts Director positions will be
                            the Agency Executive Director/Deputy Executive Director, Contracts.
                            The Division Directors/Deputy Directors will be invited to participate on
                            the selection/rating panels .
                        • The selecting official for the Contract Management Office Contracts
                            Director positions (and Tertiary Contract Management Offices Contracts
                            Chiefs positions) will be the Division Contracts Director (or Agency
                            Executive Director/Deputy Executive Director, Contracts ifthe Division
                            Contracts Director position has not been filled). The Contract
                            Management Office Commanders/Directors or their Deputies will be
                            invited to participate on the selection/rating panels.
                        • Note that the selection authority above has been approved for all future
                            competitive recruitments.
                 • DCMA-AQ is developing position descriptions for the Contracts Director and
                   Contracts Chief positions. If any Contract Management Offices have already
                   developed position descriptions for those positions, please send them to
                   DCMA-AQ and we'll make them available for other offices to use.
                 • Ratings for personnel in the Contracts Directors and Chiefs positions will be
                   done by the cognizant Division or Contract Management Office                   .
                   Commander/Director. The selecting officials for those positions will provide
                   input to the Performance Ratings for those Senior Contracting positions
                   beginning with the next annual rating period.
        •   The structure of each organization's Contracts group is not prescribed allowing for
            local flexibility as to the number/type of branches and supervisors.
        •   An anticipated result of this alignment of the contracting workforce is the elimination
            of the Operations Group Leader positions (simply by virtue of splitting the current
            Operations Group into a Contracts group and a "technical" group(s)). While not a
            requirement under this tasking, it's suggested that the Divisions and Contract
            Management Offices take this opportunity to functionally align the "technical"
            professions. We also expect that the contracts functional alignment will eliminate
            the need for Contracts Subject Matter Experts and other similar positions since the
            functional expertise will reside within the management chain of command.
        •   Any requests for extensions must be submitted to DCMA-AQ. Please note that
            because we are committed to completing an OSD"mandated contracting
            competency study this spring and the functional alignment is an enabler of that
            requirement, we will not be inclined to grant any extensions beyond the established
            due date except in unusual cases.
        •   This tasking will require a significant amount of organizational realignment across
            the Agency. Please contact the Resource and Organization Management Team
            (DCMA-DSEO) to obtain assistance on preparing the General Orders and
            establishing the effective dates for the individual realignments.
        •   If there is a question as to whether a deviation is necessary, please contact the
            points of contact below to avoid the need for rework .
                 • Any deviation from the direction above must be approved by DCMA-AQ.


http://home.dcma.mil/Guidebook/230/dc08-137 _him                                           11/14/2008




                                                      41
. F;,.Jrctional Alignment of Contracting Workforce (TASKING)                       Page 3 of 3

        • Closure:
              • Completion of the functional alignment and submission to DCMA-AQ of an
                organizational chart showing the alignment of all Contracting personnel within
                the organization. (No specific format is prescribed but, at a minimum, all
                formal organizational entities (those assigned organizational codes) will be
                identified to include the names/grades of the people heading up those
                organizations.)
              • Note that in order to have the realignments completed by the due date your
                planning and General Orders will need to be completed in February .
    • Background:
        • The decision to functionally align the Agency's Contracting workforce was made by
          the Acting Agency Director at the November 16, 2007 Executive Management Board
          meeting and communicated in the Director's Sight Picture, Functional Alignment of
          Q.Q!JJractsj~§H§9nneJ, November 30, 2007.
        • The Headquarter's realignment was completed December 9, 2007 with the
          establishment of the Executive Directorate of Contracts (DCMA-AQ).
    • Resource Impact: Will vary depending upon current organizational structure,
    • Administrative Information:
        • PLAS Process Code: Charge to PLAS Process 191, Plans and Policy Deployment
        • Your feedback on this tasking - T<i~tjngJI/IJ;lDJQ..$.!Jr\!~y.

 Points of Contact for Further Information:
 J.§DSiLQ.§Il§;OD., DCMA-AQ, (703) 428-0972
 David Ricci, DCMA-AQ, (703) 428-1144

 Resource and Organization Management Team Points of Contact:
 Naval Sea Systems and Aeronautical Systems Divisions: Leo Brehm, DCMA-DSEO, (617)753-
 3144
 Space and Missile Systems and Ground Systems Divisions: EmigJ:Ji1mDJfl.g, DCMA-DSEO,
 (703) 428-0789
 International and Special Programs Divisions: Vicki Paskanik, DCMA-DSEO, (703) 428-1467

 Signature:
 David Ricci, Executive Director, Contracts




 http://home.dcma.miIlGuidebook/230/dc08-137.htm                                   11/1412008




                                                  42
